No, 20-740

 

IN THE
SUPREME COURT OF THE UNITED STATES

JIM BOGNET, ET AL.,
Petitioners,
v.

KATHY BOOCKVAR, SECRETARY OF THE
COMMONWEALTH OF PENNSYLVANIA, ET AL.,
Respondents.

On Petition for a Writ of Certiorari from the
United States Court of Appeals for the Third Circuit

CERTIFICATE OF SERVICE

I hereby certify that on this 15" day of March, the Respondent’s Brief in
Opposition was served on all parties via the Supreme Court Electronic Filing
System, in accordance with the April 15", 2020 Order of Court regarding filing
requirements,

I declare under penalty of perjury that the foregoing is true and correct.

Executed March 15", 2021,
Respectfully submitted,

Aken
PETER G. FACEY
Counsel of Record
433 Market Street
Williamsport, PA 17701

(570) 326-6555
pfacey@mpvhlaw.com
